U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


     LAND ACQUISITION ACTIVITIES,
       NATIONAL PARK SERVICE


             REPORT NO. 99-I-518
                 MAY 1999
I
                                                                                E-IN-NPS-010-97
                 United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                         Washington, D.C. 20240



                                          MAY 2 8 1999

    Memorandum

    To:             Assistant Secretary for Fish and Wildlife and Parks

    From:           Robert .I. Williams *di &!A;_
                    Assistant Inspector General for udits

    Subject:        Audit Report on Land Acquisition Activities, National Park Service
                   (No. 99-I-518)

    This report presents the results of our audit of land acquisition activities conducted by the
    National Park Service. The objective of the audit was to determine whether the Park Service
    conducted land acquisition activities in accordance with applicable laws and regulations and
    whether it paid a fair price for the land acquired.

r   We found that the Park Service’s processes and procedures for acquiring land were efficient
    and conducted in accordance with applicable laws and regulations in the areas of land
    acquisition planning; acquisitions through condemnation, donation, and transfer of
    properties; payments of relocation claims for closing costs, residential moving expenses. and
    replacement housing; and purchases of land costing less than $100,000. However, for certain
    land acquisitions, the Park Service did not ensure that just compensation was properly
    established before it purchased lands and conservation easements at the regions reviewed.
    This occurred because the Park Service did not fully comply with Federal standards or
    implement the procedures for preparing and reviewing appraisals of real property. We found
    that 32 of the 42 appraisals reviewed did not meet Federal appraisal standards in at least one
    area, including 6 appraisals that were not adequately supported. We also found that 40 of
    the 42 appraisal review reports did not contain one or more of the required elements needed
    to substantiate that the reviews were performed properly and in compliance with regulations.
    In addition, the Park Service acquired one property without obtaining an appraisal and
    acquired another property based on an appraisal that had insufficient documentation to
    support the estimated fair market value. Officials at the Park Service’s Washington Offrce
    attributed the noncompliance with Federal appraisal standards to insufficient program
    oversight. Because of the noncompliance, the Park Service did not have adequate assurance
    that it paid fair market value for land, including nine acquisitions that totaled $7.3 million.

    We also found that the Park Service did not take sufficient action to protect the
    Government’s interests when it acquired land from nonprofit organizations. Specifically. the
    Park Service did not make concerted efforts to negotiate a sales price at an amount less than
fair market value when it acquired land from nonprofit organizations, even though such an
option was authorized by Department of the Interior guidance. As a result, the Park Service
did not take advantage of the opportunity to save about $3 million, which represented the
differences between the nonprofit organizations’ purchase prices and selling prices of lands
conveyed to the Park Service.

In addition, we found that the Park Service did not properly establish the amount of
compensation paid for conservation easements at two parks. To facilitate the acquisition of
conservation easements, the Park Service obtained inappropriate appraisal updates at one
park and did not obtain a valid appraisal at another park. As a result, the Park Service
may have paid $2.6 million more than fair market value to obtain a conservation easement
at one park and did not have assurance that the payment of $588,000 for a conservation
easement at another park was properly supported.

We also found that the Park Service’s Southeast Regional Office, to expedite business
property owner and tenant relocations for the 1996 Summer Olympics, paid relocation claims
which were not supported by adequate documentation. As a result, the Park Service did not
have adequate assurance that payments totaling $53,400 for relocation costs were reasonable
or justified.

Further, we found that the Park Service’s land acquisition management information system
contained data that were inaccurate and incomplete. Specifically, the system did not contain
information on seven land purchases, totaling $1.1 million, and 11.4 percent of the system’s
required data fields on land purchases made during fiscal years 1995 through 1997 were
incomplete. Park Service officials said that system data were not complete and accurate
because the Park Service had not implemented quality control procedures to validate system
data or to ensure that erroneous data from a previous management information system were
not entered into the new system. Because the data were inaccurate and incomplete, the Park
Service did not have reliable information for tracking and managing land acquisition
activities.

In the report section “Other Matters,” we discussed the Park Service’s use of appraisals
obtained by nonprofit organizations. At the Southeast Region, the Park Service generally
used appraisals obtained by nonprofit organizations to establish compensation amounts. Park
Service officials said that they used nonprofit organizations’ appraisals to expedite the
acquisition process. Based on a review of appraisals obtained by landowners and those
obtained independently by the Park Service, we found that the Park Service’s independent
appraisals in at least three cases established lower fair market values. As such, we believe
that the Park Service might acquire land at lower prices if it obtains independent appraisals.

In the April 30, 1999, response (Appendix 2) to the draft report from the Director, National
Park Service, the Park Service concurred with Recommendations A. 1, A.2, C.2, D.l, D.2,
D.3, and E.l, which we considered resolved but not implemented. Accordingly, the
unimplemented recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. The Park Service did not concur
with Recommendations A.3, B.1, and E.2 and did not express specific concurrence or
nonconcurrence with Recommendation C. 1. Based on the response, we request that the Park
Service reconsider its responses to Recommendations A.3, B. 1, and E.2, which are
unresolved, and provide additional information for Recommendation C. 1 (see Appendix 3).

In accordance with the Departmental Manual (360 DM 5.3) we are requesting a written
response to this report by July 16, 1999. The response should provide the information
requested in Appendix 3.

The legislation, as amended, creating the Office of Inspector General, requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings
(Appendix l), actions taken to implement audit recommendations, and identification of each
significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Park Service personnel in the conduct of our audit.
                                                CONTENTS

                                                                                                                                    Page

INTRODUCTION . . . . . . . . .._............................................                                                               1

   BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
   OBJECTIVE AND SCOPE ............................................ .2
   PRIORAUDITCOVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

FINDINGS             AND           RECOMMENDATIONS                            . . . . . _ _ _ . . _ . . . . . . _ . . . . . . . . _ . . . .4

   A.   APPRAISALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
   B.   NONPROFIT ORGANIZATIONS ................................... 16
   C.   CONSERVATION EASEMENTS .................................. .20
   D.   BUSINESS RELOCATION PAYMENTS ............................. 25
   E.   MANAGEMENT INFORMATION SYSTEM ......................... .28

OTHER             MATTERS                 ...._.........__..._................,........,.. 3 1

APPENDICES

   1. CLASSIFICATION OF MONETARY AMOUNTS ..................... .33
   2. NATIONAL PARK SERVICE RESPONSE ........................... .34
   3. STATUS OF AUDIT REPORT RECOMMENDATIONS ................ .44
                                    INTRODUCTION

BACKGROUND
The National Park System consists of 375 units designated as national parks, preserves,
historic sites, monuments, seashores, recreation areas, battlefields, trails? and other areas.
These units encompass more than 83 million acres of land, of which about 4.68 million acres
(including 3.8 million acres in Alaska) were privately owned as of September 30,1997. Park
System lands are acquired to preserve nationally important natural and historic resources, to
establish new parks, to provide additional lands in existing parks, and to add buffers around
parks for natural resource protection. For parks within Park System boundaries that contain
private land, the National Park Service has developed land protection plans, which identify
the minimum land acquisitions needed to prevent incompatible uses of these lands.

Funding for land acquisitions is provided through annual appropriations from the Land and
Water Conservation Fund. As provided in the Land and Water Conservation Fund Act of
1965, the Park Service can use this funding, which remains available until expended, to buy
land only at Congressionally authorized parks. Also, Part 4.1 of the National Park Service’s
Land Acquisition Procedures Manual states that the written approval of the House and
Senate Committees on Appropriations is required for purchases that cost more than the
approved appraised value. The Fund also finances the administration of the land acquisition
program, including the assessments of new units that are proposed for inclusion in the Park
System. During fiscal years 1995 through 1997, the Park Service used appropriated funds
totaling $169 million to acquire 69,000 acres’ of land, of which $22 million was used for
program administration; $8 million for appraisal, closing, relocation, and title costs; and
$139 million for direct payments to landowners.

The Park Service may acquire land through purchase, donation, condemnation, transfer from
other Federal agencies, and exchange for other public and private lands. Also, the Park
Service may obtain conservation easements to protect scenic, ecological, historic,
archeological, or cultural resources within existing parks or in authorized areas outside park
boundaries. When expedient action is needed to prevent the sale of property to other parties
or to eliminate the threat of adverse development. the Park Service may acquire land with
the assistance of nonprofit organizations. These organizations either purchase or obtain a
purchase option on land with the intention of selling the.land to the Park Service when funds
are available.




‘This amount does not include a land exchange that added 85.000 acres to the Park Service’s Big Cypress
National Preserve because the transaction was conducted by the Office of the Secretary.


                                                   1
The Park Service’s land acquisition activities are administered by its Land Resources
Division, located in Washington, D.C.; nine regional offices; and three project offices. As
of September 30, 1997, the Park Service had 141 full-time-equivalent employees engaged
in land acquisition activities.

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether the National Park Service conducted
land acquisition activities in accordance with applicable laws and regulations and whether
it paid a fair price for the land acquired. The audit covered land acquisition activities that
occurred during fiscal years 1995 through 1997.

We conducted the survey phase of our review at the Appalachian Trail Project Office in
Martinsburg, West Virginia; the Northeast Regional Office in Philadelphia, Pennsylvania;
the National Capital Regional Office in Washington, D.C.; and, the Southeast Regional
Office in Atlanta, Georgia. Based on the results of our survey, we concluded that the Park
Service’s processes and procedures for acquiring land were conducted efficiently and in
accordance with applicable laws and regulations in the areas of land acquisition planning;
acquisitions through condemnation, donation, and transfer of properties; payments of
relocation claims for closing costs, residential moving expenses, and replacement housing;
and purchases of land costing less than $100,000. Also, because we found no significant
deficiencies in land acquisition practices at the Appalachian Trail Project Office during the
survey phase, we limited our audit verification phase to determining whether fair prices were
paid for land acquired by the Northeast, Southeast, and National Capitol Regional Offices.

We focused our audit on acquisitions of more than $100,000 made through purchase or
exchange (138 acquisitions, which totaled $74 million), transactions with nonprofit
organizations, and business relocation payments of more than $5,000 because we considered
these transactions to be the areas with the highest risk for deficiencies. At the three regional
offices reviewed during the verification phase of our audit, these acquisitions involved costs
of about $4 1 million (including program funds for fiscal years 1995,1996, and 1997 and the
value of Federal lands used in exchanges). Of the acquisition costs of $41 million. we
audited costs of $37 million, including costs of $10.8 million attributable to land that the
Park Service acquired by purchase or exchange from nonprofit organizations. (We reviewed
2 1 of 40 acquisitions at the Northeast and Southeast Regional Offices that were transacted
with nonprofit organizations.) We also reviewed the Park Service’s management
information system, which is used to track and report land acquisition activities.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly. we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances. As part of our audit, we evaluated the system of internal controls
over the land acquisition process to the extent we considered necessary to accomplish the

                                               2
objective. We found internal control weaknesses in the Park Service’s preparation and
review of appraisals, transactions with nonprofit organizations, purchase of conservation
easements, payment of business-related relocation claims, and maintenance of management
information system data. Our recommendations, if implemented, should improve the
internal controls in these areas.

In addition, we reviewed the Secretary’s Annual Statement and Report to the President and
the Congress, which is required by the Federal Managers’ Financial Integrity Act, for fiscal
year 1995 and the Departmental Reports on Accountability for fiscal years 1996 and 1997,
which include information required by the Act, and determined that no reported weaknesses
were within the objective and scope of our audit.

PRIOR AUDIT COVERAGE

During the past 7 years, the General Accounting Office has not issued any audit reports on
the Park Service’s land acquisition activities. However, the Office of Inspector General
issued the audit report “Department of the Interior Land Acquisitions Conducted With the
Assistance of Nonprofit Organizations” (No. 924433) in May 1992, which covered the
National Park Service, the U.S. Fish and Wildlife Service, and the Bureau of Land
Management. The report concluded that nonprofit organizations helped acquire needed land
but that certain transactions were not adequately controlled to ensure that nonprofit
organizations did not benefit unduly and that the Government’s interests were adequately
protected. The report stated that none of the three bureaus fully complied with established
appraisal standards which required that estimates of property values be timely, independent,
and adequately supported by market data. As a result, according to the report. the
Department had little assurance that the fair market value estimates used to establish land
acquisition prices were timely, complete, and accurate. The report contained seven
recommendations, all of which were considered resolved and implemented. However. our
current audit found that the Park Service was not adequately protecting the Government’s
interests in transactions with nonprofit organizations and that appraisals did not fully meet
established standards.




                                              3
                FINDINGS AND RECOMMENDATIONS

A. APPRAISALS

The National Park Service did not fully comply with the established standards or implement
the required procedures for preparing and reviewing appraisals ofreal property. Specifically,
we found that 32 of the 42 appraisals audited did not meet Federal standards in at least one
area, including 6 appraisals that were not adequately supported. We also found that 40 of
the 42 appraisal review reports did not contain one or more of the required elements needed
to substantiate that the appraisal reviews were performed properly and in compliance with
Federal standards and appraisal principles. In addition, the Park Service acquired one
property without obtaining an appraisal and acquired another property based on an appraisal
that had insufficient documentation to support the estimated fair market value. The
guidelines for preparing and reviewing appraisals are contained in the “Uniform Appraisal
Standards for Federal Land Acquisitions,” issued by the Interagency Land Acquisition
Conference in 1992, and in the Park Service’s Land Acquisition Procedures Manual, both
of which require that appraisals include specific information to support analyses, opinions,
and conclusions and be reviewed and approved by appraisal reviewers. However. Park
Service officials said that full compliance was not achieved because the Washington Office
did not provide sufficient program oversight. As a result, the Park Service did not have
adequate assurance that it paid fair market value for seven acquisitions, totaling $7.0 million,
for which adequately supported appraisals were not prepared; for one acquisition for $70,000
that was not supported with an appraisal; and for one acquisition for $280,000 for which the
original appraisal was not available.

Appraisal Standards

We found that the Park Service did not fully comply with one or more of the Federal
standards for preparing appraisals for 32 of42 appraisals we reviewed, including 6 appraisals
that were not adequately supported, 30 appraisals that did not contain the required appraiser
certifications on conformity with Federal standards, and 6 appraisals that did not contain the
required lo-year sales history of the subject property or information on the date of the last
sale.

    Adequately Supported Appraisals. The “Uniform Appraisal Standards for Federal
Land Acquisitions” (the “Standards”) requires Federal agencies to appraise land at its
“highest and best use” and to document the basis used to estimate land values. Moreover,
Section A-9 of the “Standards” states, “‘Elements affecting value that depend upon events
or combinations of occurrences which, while within the realm of nossibilitv, are not fairlv
shown to be reasonablv probable. should be excluded from consideration, for that would
allow mere speculation and conjecture to become a guide for the ascertainment of value.“’



                                               4
We identified six appraisals that, in our opinion, were not adequately supported as follows:

         - An appraisal valued a currently inaccessible tract of land at $3.1 million based on
the land’s potential use for residential development. In the appraisal report, the appraiser
stated that the access needed to develop the property (and thereby enable the property to have
a higher value) could be purchased from an adjacent landowner for $1 million, but the
appraiser provided no documentation to support this assumption. However, we found
documentation in the Park Service’s files showing that the landowner of the adjacent
property was unwilling to sell the land needed for access to (and future development of) rhe
potential Park Service property. As such, we concluded that the appraised value was
overstated because there was no documentation to show that the land had an existing or
potential “highest and best use” for residential development.

         - We considered one appraisal to be inadequately supported because the appraiser
used the recent sale of the same property to a related party to estimate the property’s market
value. In this transaction, several parties, including a nonprofit organization, two companies,
a lawyer, and an appraiser, were involved in negotiations to exchange private land for Park
Service land. In a preliminary agreement, one of the companies involved in the negotiations
agreed to exchange a portion of its land for Park Service land. Before the exchange was
finalized, this company sold the total tract of land, including the parcel subject to the
exchange, to the other company that was involved in the initial discussions on the land
exchange. The nonprofit organization obtained or coordinated the appraisals of both tracts
of land (the Park Service property and the property owned by the company). Also, the
appraiser used the sales price of the land in estimating the land’s fair market value
($430,000), even though this land sale was transacted between two parties that were involved
in the land exchange with the Park Service. We believe that there was not an “arm’s_length”
relationship between the parties involved in this land exchange because the appraisals for
both properties were obtained by the nonprofit organization, which had negotiated the
exchange, and because the appraised fair market value of the acquired land was based. in
part, on the sales price of the land in a transaction between two parties which were involved
in the land exchange negotiations.

        - An appraisal provided by the landowner estimated that a property’s fair market
value was 1.5 percent more than comparable properties, thereby increasing the value of the
property from $49,300 to $57,000. The adjustment was made on the basis of changed
conditions in another area where crime had decreased and property maintenance had
improved, resulting in higher property values in that area. The appraiser, however, pro\.ided
no documentation to support the assumption that the neighborhood in which the Park Semite
sought to acquire property would experience a similar decrease in crime or improvement in
property maintenance.

        - The Park Service obtained an updated appraisal that was made without a physical
reinspection of the volume and quality of timber on the property. The appraiser estimated

                                               5
the property’s fair market value at $1.4 million, or $300,000 more than the $1 .l million
estimated fair market value in a prior appraisal that was performed 2 years earlier. Park
Service procedures in Section 3.3.5 of the Land Acquisition Manual, Part XI, state that
“updated appraisals shall be complete appraisal reports in every respect,” including
reinspection of the subject property. Although Park Service officials stated that the
appraiser’s timber estimator had visited the property and measured several sample plots to
calculate the increase in timber volume, the appraisal report stated, “The update was done
without revisiting the property, and I assume that no timber harvests have been made, nor
have there been any losses due to insects, wind, ice, or other factors that would substantially
affect the value of the property.”

       - Two properties were appraised at $250,000 and $1.5 million, respectively, based
on the properties being free of contaminants, even though the Park Service was aware that
contaminants existed on these properties. Section C-9 of the “Standards” states that “it is
improper to estimate the market value of a property assuming it is free of contamination
when there is evidence, by the past use of the property or the appraiser’s inspection thereof,
that contamination may exist.” Park Service officials stated that the appraisal for both
properties was performed in this manner to expedite the purchase in time for the 1996
Olympic Games.

       - An appraiser increased the value of a property by $10,000, to $255,000, based on
information provided by the property owner that a second source of water on the property
could be used to develop an additional residence. Because the appraiser did not verify the
owner’s assertion, we considered the $10,000 adjustment to be unsupported.

        Appraiser Certifications. Section B- 1.4 of the “Standards” requires that appraisals
used by the Government contain appraiser certifications that the appraisals were prepared in
conformity with nine provisions in the “Standards.” We found, however, that 30 of 42
appraisals audited did not contain the required certifications that the appraisals were prepared
in conformity with the “Standards.” Instead, less stringent commercial standards were cited.
As a result, the Park Service did not have full assurance that the appraisers properly
considered the “Standards” when the appraisals were prepared and that the appraisals they
prepared were valid and complete.

       Prior Sales History. Section A-5 of the “Standards” requires the appraisals to
contain a history of the appraised property, including all sales of the property within the past
10 years. Section A-5 states, “prior sales of the same property, reasonably recent and not
forced, are extremely probative evidence of market value.” We found, however, that 6 of the
42 appraisals reviewed did not contain the required IO-year history of the subject property
or the date of the sale. As a result, the Park Service did not have full assurance that the
appraisals were based on complete information on which to establish the estimated value of
the land.


                                               6
Appraisal Reviews

Section C-8 of the “Standards” states that the Appraisal Foundation’s “Uniform Standards
of Professional Appraisal Practice” should be considered a minimum requirement for
appraisal review. Standard 3 ofthe “Uniform Standards” requires that appraisers review and
express an opinion in appraisal review reports on (1) the appraisal‘s completeness; (2) the
adequacy and relevance of the data used and the propriety of any adjustments to the data; (3)
the appropriateness of the appraisal methods and the techniques used; and (4) whether the
analyses, opinions, and conclusions in the appraisals are appropriate and reasonable. This
standard also requires that review appraisers include signed certifications in their reports
stating the following: (1) facts and data used in the review and reporting process are true and
correct; (2) reported analyses, opinions, and conclusions are objective and based on the
assumptions and conditions stated in the report; (3) the review appraiser has or does not have
a present or prospective interest in the subject property and has or does not have a personal
interest or bias with respect to the parties involved; (4) the review appraiser’s compensation
is not contingent on an action or event resulting from the analyses, opinions, or conclusions
in or in the use of the report; (5) analyses. opinions, and conclusions were developed and
reported in conformity with the “Uniform Standards of Professional Appraisal Practice”; (6)
the review appraiser did or did not personally inspect the subject property under review; and
(7) no one provided significant assistance to the review appraiser in the review and reporting
process.

We found that 40 of the 42 appraisal reviews did not contain one or more of the four
opinions and seven certifications required for each appraisal, as discussed in the previous
paragraph. Park Service employees at the offices we visited could not explain why their
review appraisers did not include the required opinions and certifications. As such, we
believe that the Park Service did not take the required actions to ensure that the appraisals
were adequately supported and that the review process was conducted in compliance with
the “Uniform Standards of Professional Appraisal Practice.”

Required Appraisals

Both the Park Service’s Land Acquisition Procedures Manual and the Uniform Relocation
Assistance and Real Property Acquisition Policies Act of 1970 (Public Law 91-646) require
that real property be appraised before negotiations with property owners are initiated.
However? we found two transactions in which the Park Service either did not obtain the
required appraisal or did not maintain a copy of the required appraisal as follows:

         - At one regional office, Park Service officials said that the Chief Appraiser (now
retired) approved the use of a market/feasibility study instead of a formal appraisal to
establish a property’s value as $70,000. According to a Park Service official, the study was
performed to confirm the estimated market value of an unapproved appraisal that was


                                              7
conducted 4 years earlier. Because this land acquisition was made without a formal
appraisal, we consider the amount of this transaction to be unsupported.

         - In January 1996, the Park Service offered to purchase property based on an
approved appraisal that valued the property at $200,000. The landowner rejected the offer.
In February 1996, the Park Service approved another appraisal of the same property for
$280,000 and offered this amount to the landowner, who accepted the offer. According to
a Park Service official, the landowner refused to accept the original offer of $200.000
because the appraiser did not use the correct square footage or consider improvements made
to a building on the property. The official further stated that the appraiser was “embarrassed”
about his errors, collected all copies of the original appraisal, and submitted the new
appraisal. Because no documentation was maintained. we could not determine whether the
original appraisal was erroneous or the $80,000 increase in value between the two appraisals
was warranted.

Washington Office land acquisition officials said that they had not conducted routine reviews
of regional or project offices’ land acquisition files or practices to ensure that the offices
complied with acquisition regulations because of insufficient funding. Regarding the
completeness of the appraisals, Washington Office officials said that regional officials may
have approved appraisals based on valid assumptions or considerations but that the regional
officials did not prepare documentation to show the factors considered in establishing and
approving fair market values.

Two Appraisals

The U.S. Fish and Wildlife Service’s Appraisal Handbook requires that a second appraisal
be prepared by a qualified contract appraiser or an appraiser from a different region for
property that is “unique, ” “controversial,” or “complex” or that has an estimated l.alue
exceeding $750,000.z In a recent audit of the Service‘s land acquisition activities (“Land
Acquisition Activities, U.S. Fish and Wildlife Service,” Report No. 99-I-162, issued in
December 1998), we found that of 17 land acquisitions for which the Service obtained two
appraisals, it acquired the land at the lower of the two appraised values in 11 cases. The Park
Service, however, does not require the preparation and approval of two appraisals for land
acquisitions. Based on the benefits of using two appraisals, as demonstrated by the Fish and
Wildlife Service’s acquisition of land at a lower cost, we believe that the Park Ssr\ice
should also require the preparation and approval of two appraisals for unique, controversiaL
or complex land acquisitions and for high-dollar value land acquisitions. Of the land
acquisitions that were transacted in tiscal years 1995 through 1997, we identified 20




‘In response to our draft report on Fish and Wildlife Service land acquisitions, Service officials said that they
recently increased the acquisition threshold for requiring two appraisals to $1 million.

                                                        8
acquisitions that involved acquisition costs of $750,000 or more, of which 14 involved
acquisition costs of $1 million or more.

Recommendations

We recommend that the Director, National Park Service:

        1. Provide Washington Office oversight of regional offices’ land acquisition
activities to ensure that requirements for the preparation and review of appraisals are
followed, including compliance with the “Uniform Appraisal Standards for Federal Land
Acquisitions.”

        2. Ensure that adequately documented appraisals are prepared and approved before
offers are made to purchase land.

        3. Establish a requirement for obtaining two appraisals for acquisitions that are
unique, controversial, or complex or that exceed a designated high-dollar-value threshold.

National Park Service Response and Office of Inspector General Reply

In the April 30, 1999, response (Appendix 2) to the draft report, from the Director, National
Park Service, the Park Service concurred with Recommendations 1 and 2 but did not concur
with Recommendation 3. Based on the response, we consider Recommendations 1 and 2
resolved but not implemented, and request that the Park Service reconsider its response to
Recommendation 3, which is unresolved (Appendix 3).

Regarding Recommendation 3, the Park Service stated that it did not believe a two-appraisal
requirement was necessary because its appraisers already had the authority, which was not
limited by the type or value of the property, to obtain “as many appraisals as necessary to
assure conformance with UASFLA [“Uniform Appraisal Standards for Federal Land
Acquisitions”].” The Park Service also stated that it “view[ed] this requirement as being
potentially costly . . . not an efficient use of Federal funds . . [and] may not even be
necessary.” In addition, the Park Service stated that “having two divergent appraisals on
high value properties could put the government at a decided disadvantage if eminent domain
is ultimately used to acquire the property.”

Although we recognize that the Park Service has the authority to obtain more than one
appraisal if deemed necessary, we believe that a requirement to obtain two appraisals for
acquisitions which are unique, controversial, or complex or which exceed a designated high-
dollar-value threshold would protect the Government’s interests by ensuring that adequate
support is obtained. Regarding the cost of a second appraisal. we believe that the potential
for reducing land acquisition costs justifies the additional appraisal cost. as documented in


                                             9
our audit report “Land Acquisition Activities, U.S. Fish and Wildlife Service” (No. 99-I-
162) dated December 1998. According to that report, in 11 of 17 cases in which second
appraisals were obtained, the Service realized savings by paying the lower of the appraised
values. Moreover, since only 14 land acquisitions, costing $1 million or more, were
transacted during the 3-year period reviewed (fiscal years 1995 through 1997) the number
of second appraisals, in our opinion, is relatively limited and therefore should not result in
an undue burden to the Park Service.

The Park Service also stated that the Government could be at a “disadvantage” in eminent
domain proceedings if there are two different appraisals for the property. We do not believe
that disparate appraisals would adversely impact contested land acquisitions because, during
eminent domain proceedings, the determination of cost is based not only on the appraisal or
appraisals obtained by the Park Service but also on appraisals obtained by the Department
of Justice and by the property owners. As such, the second appraisal would be just additional
evidence of value available to the court.

Additional Comments on Audit Finding

The Park Service also provided additional comments on the finding. The Park Service’s
comments and our replies are as follows:

Appraisals

        National Park Service Comments. The Park Service “strongly disagreed” with our
statement that it “did not fully comply with the established standards or implement the
required procedures for preparing and reviewing appraisals of real property.” The Park
Service stated that “except for a few isolated cases, all appraisals and reviews have met the
intent of all established standards.”

        Office of Inspector General Reply. We consider the 32 of 42 appraisals that did not
meet all Federal appraisal standards and the 40 of 42 appraisal reviews that did not contain
all required elements to be indicative of a significant number of deficiencies in the appraisal
preparation and review process. Moreover, in stating that it would hire staff and establish
oversight teams, we believe that the Park Service has recognized that existing controls are
inadequate and that additional controls are needed to ensure compliance with Federal
appraisal and appraisal review standards.

Adequately Supported Appraisals

        National Park Service Comments. The Park Service stated that in our discussion
of the inaccessible tract of land located at the Chattahoochee River National Recreation Area
(page 5 of this report), we concluded that “the appraised value [$3.1 million] was overstated


                                              10
because there was no documentation to show that the land had an existing or potential
highest and best use for residential development.” The Park Service further stated that it
agreed with the appraiser’s valuation that the property had “a highest and best use for
residential development . . . based on the assumption that access could be purchased from
the adjacent landowner.” Also, the Park Service stated that the appraiser interviewed the
landowner, “who stated that he would sell an access easement to his neighbor if requested.”

        Office of Inspector General Reply. We found no documentation to show that
access to the land had been negotiated or agreed to, a requisite condition for this property to
have an appraised market value based on its highest and best use for residential development.
Rather, we found documentation in the Park Service’s acquisition files which showed that
the owner of the adjoining property did not intend to sell access rights.

         National Park Service Comments. Regarding the exchange of Federal land for
private land located at the Chattahoochee River National Recreation Area (page 5 of this
report), the Park Service said that we “considered one appraisal to be inadequately supported
because the appraiser used the recent sale of the same property to a related party to estimate
the property’s market value.” The Park Service also stated that it believed the appraiser
“appropriately considered this sale of the subject property and properly concluded it was an
arms-length transaction.” It quoted Section A-5 of the “Standards” as follows: “Since
compensation is measured by market value (supra, p.3), prior sales of the same property,
reasonably recent, and not forced, are extremely probative evidence of market value.
Accordingly, the appraiser has an obligation to determine what the owner paid for the
property.” Also, the Park Service stated that the appraiser “presented additional sales to
support his conclusion that this transaction was within the adjusted value range of the other
sales.”

         Office of Inspector General Reply. The Park Service based its position on a
Federal appraisal standard that, in our opinion, does not apply to this transaction. Although
the cited standard (Section A-5) allows appraisers to use prior sales of the same property to
establish market value, the prior sale in this example u-as between parties mutually involved
in the Park Service land acquisition. As such, 1v-e believe that Section A-4 of the
“Standards”applies: “Sales between. . . closely related business entities are not arms-length
transactions, and since they may involve other considerations than a fair market value
consideration, such sales should not be used for comparative purposes.” Also, regarding the
additional “comparable sales,” we found that two of the five comparable sales included in
the appraisal were offers for sale and not sales, three comparable sales were for properties
which had significantly less acreage than the subject property. and only one sale involved
a property of comparable size.

        National Park Service Comments. The Park Service stated that it believed a
15 percent upward adjustment made to a property at the Martin Luther King, Jr. National
Historic Site was “supported by a paired-sale analysis in the appraisal and warranted

                                              11
consideration of the urban renewal efforts currently taking place in the area of the subject
property.” The Park Service further stated that according to the Appraisal Institute, “When
market evidence clearly supports differences between sales attributable to specific elements
of comparison, paired data analysis can be a very effective technique.”

        Office of Inspector General Reply. The “paired-sale analysis” to which the Park
Service referred pertains to a technique for adjusting the fair market value of properties.
Specifically, “The Appraisal of Real Estate,” published by the Appraisal Institute, states,
“Paired data analysis is a process in which two or more market sales are compared to derive
an indication of the size of the adjustment for a single characteristic.” Although we do not
question the use of price adjustments for documented or reasonably assumed factors, we
believe that the price adjustment made to the valuation of this Park Service property was
unwarranted. In this case, the appraiser found that improved conditions in another
neighborhood had resulted in higher property values. The appraiser applied an adjustment
factor to increase the value of the Park Service property based on the increased value from
improved conditions in the other neighborhood. However, we found no documentation to
show that improvements were imminent or could reasonably be assumed in the neighborhood
in which the Park Service sought to acquire property. Therefore, we believe that the
appraiser had no basis for making the 1.5 percent upward adjustment to the value of the Park
Service property.

        National Park Service Comments. The Park Service stated that an appraiser
prepared an updated appraisal of timber property without physically reinspecting the property
and that the appraiser was “remiss” in not performing the inspection. The Park Service also
said that the property had been reinspected by a forester who provided technical assistance
to the appraiser and that the appraiser’s failure to reinspect “had no impact on the final value
conclusion reached in the report.”

        Office of Inspector General Reply. We found no documentation in the file to
indicate that a forester physically inspected the entire property and fully evaluated timber
conditions. As such, we believe that there was insufficient support for the updated
appraisal’s valuation, which, in part. was based on the value of the timber on the property.

        National Park Service Comments. Regarding the two properties that had known
contaminants, the Park Service said that the properties “were appraised as being free of
contaminants in order to expedite the acquisition process in time for the 1996 Olympic
Games” and that it considered the appraisals to be “valid for the condition of the property
when it was conveyed” because title to the properties was not taken until after the
contaminants were removed.

        Office of Inspector General Reply. We believe that the Government is taking an
unacceptable risk when it relies on appraisals of contaminated properties which do not factor
in professional estimates ofthe cleanup costs. Moreover, an appraisal that is based on future,

                                               12
improved conditions of a property is not in compliance with the “Standards,” which states
that it is “improper to estimate the market value of a property assuming it is free of
contamination when there is evidence, by the past use of the property or the appraiser’s
inspection thereof, that contamination may exist.”

Appraiser Certifications

       National Park Service Comments. The Park Service agreed with our statement that
30 of 42 appraisals did not contain the appraisers’ certifications that they were prepared in
accordance with the “Standards.” However, the Park Service “strongly disagree[d]” with our
statement that it did not have full assurance that the appraisal standards were properly
considered in the preparation of appraisals and that the appraisals were valid and complete.
The Park Service further said that all appraisals used “to establish just compensation are
reviewed to assure conformance with [the “Standards”], regardless of what is certified by the
appraiser.”

        Office of Inspector General Reply. In our opinion, the Park Service does not have
“full assurance” that appraisals are prepared in accordance with professional appraisal
standards unless the appraisers make such certifications.

         National Park Service Comments. Although the Park Service agreed that 6 of the
42 appraisals reviewed did not contain the IO-year history of the subject property, it
“strongly disagree[d]” that it “did not have full assurance that the appraisals were based on
complete information on which to establish the estimated value of the land.” The Park
Service further stated that its review appraisers had access to title information which would
have informed them of any transactions impacting the valuation of subject properties and that
its review appraisers would have,required these transactions to be discussed in the appraisal
reports.

        Office of Inspector General Reply. We believe that the Park Service cannot have
“full assurance” that its appraisals are based on complete information without evidence that
it reviewed all required documentation (in this case, the required lo-year histories of the
subject properties). Although Park Service review appraisers have access to title
information, we could not determine whether such information was reviewed and considered
in establishing market value because no documentation was available to show that historical
sales information had been evaluated.

Appraisal Reviews

         National Park Service Comments. The Park Service agreed with our statement that
40 of 42 appraisal reviews did not contain one or more of the four opinions and seven
certifications required by the “Uniform Standards of Professional Appraisal Practice,” but
it “strongly disagree[d]” that it did not take required actions to ensure that the appraisals were

                                                13
adequately supported and that the review process was conducted in compliance with
appraisal standards. The Park Service stated that all appraisals were reviewed “to assure
conformance with. . . [the professional appraisal standards], regardless of missing opinion
verbiage or certifications” and that “[nleither of these items affects the competency or
technical accuracy of the review.” However, the Park Service stated that “in the future” it
would “ensure that [appraisal] standards are followed.”

        Office of Inspector General Reply. We believe that our conclusions are
substantiated by the deficiencies found in 40 of 42 appraisal reviews. Moreover, the
opinions and certifications required by professional appraisal standards are considered to be
minimum requirements for “competent” appraisal reviews. As such, we believe that the
“competency or technical accuracy” of the reviews is not supported without the required
opinions and certifications.

Required Appraisals

         National Park Service Comments. Regarding the use of a market feasibility study
rather than an appraisal to establish the value of a property at the Women’s Rights National
Historic Park, the Park Service stated that it had not approved the nonprofit organization’s
appraisal because of “serious deficiencies” and that its reviewer “performed his own market
analysis and became the appraiser for this parcel,” as permitted under Rule 3- 1 (g> of the
professional appraisal standards. The Park Service further stated that it believed the
“reviewer’s final value conclusion _ . . was fully supported.”

        Office of Inspector General Reply. We discussed the market feasibility study used
by the Park Service with the Associate Appraiser, who assisted in its preparation. The
Associate Appraiser stated that the analysis was called a market feasibility study instead of
an appraisal because all of the applicable professional standards were not followed. The Park
Service’s procedures for acquiring land require that all appraisals be prepared in accordance
with the professional appraisal standards and that all appraisals be reviewed by qualified
review appraisers. Because this market feasibility study was not prepared in accordance with
applicable professional standards, we consider the $70,000 amount of the purchase, which
was based on the study, to be unsupported.

In its response, the Park Service stated that it considered our inclusion of the $70.000 as a
“Questioned Cost” in Appendix 1 to be “unwarranted” because a “supplemental market
analysis” had been prepared after the nonprofit organization’s appraisal had been
“disapproved.” We consider the classification to be appropriate because the market feasibility
study, according to the “Standards,” was not an acceptable and properly reviewed appraisal.

        National Park Service Comments. Regarding a property that had an unsupported
$80,000 increase in value after the original appraisal was updated, the Park Service
disagreed with our “accusation” that the increase in value “may not have been warranted.”

                                              14
The Park Service further stated that incorrect square footage was used to estimate the value
in the first appraisal and that when this factor was corrected in the updated appraisal, the
value of the property increased by $80,000. The Park Service also said that the second
appraisal was “reviewed in conformance with [the professional appraisal standards] and
found to be fully supported.”

        Office of Inspector General Reply. Our report did not imply that the Park Service
had no basis for the increased property value. Instead, the report stated that because the
original appraisal was not available, we could not determine whether it contained incorrect
information. Also, our comments regarding the property owner who had refused the Park
Service’s first offer and who subsequently informed the Park Service that the original,
approved appraisal contained incorrect square footage was based on an interview with a Park
Service official. The absence ofthe original, approved appraisal (which the Park Service was
required to retain) and the 40 percent increase in the appraised value of the property over the
original appraised value (which was attributable to information provided by the property
owner) led to our conclusion that the updated appraised value was not warranted. Also, we
found that the second appraisal was not reviewed “in conformance” with the professional
appraisal standards and was not “fully supported.” In its review of the updated appraisal, the
Park Service did not include any of the appraisal review standards’ required four opinions
and included only one of the required seven certifications.

In its response, the Park Service stated that it considered our inclusion ofthe $80,000 amount
as a “Questioned Cost” in Appendix 1 to be “unwarranted” because the property value was
based on an approved appraisal. We consider the classification to be appropriate because the
Park Service had no support for the $80,000 increase in property value (the difference
between the undocumented $200,000 original, approved appraisal and the $280.000 updated
appraisal that was not reviewed in conformance with the professional appraisal standards).




                                              15
B. NONPROFIT ORGANIZATIONS
The National Park Service did not take sufficient action to protect the Government’s interests
when it acquired land from nonprofit organizations. Specifically, the Park Service did not
take the opportunity to negotiate a lower purchase price. Guidance on acquiring land from
nonprofit organizations is contained in the Department’s “Clarification to August 10, 1983
Guidelines for Transactions Between Nonprofit Organizations and Agencies of the
Department of the Interior,” issued in August 1995; the Park Service’s Procedures Manual;
and Park Service policy memoranda. The Park Service, however, did not choose the option
in the “Guidelines” that would have enabled it to attempt to negotiate land acquisitions at less
than fair market values. As a result, the Park Service did not take full advantage of the
opportunity to achieve savings of as much as $3.2 million, which represented the differences
between the nonprofit organizations’ purchase prices and the selling prices of certain lands
conveyed to the Park Service.

Guidelines

The Department’s “Guidelines” established the policy that bureaus could pay either “the fair
market value of the property, based upon the bureau-approved appraisal” or “the purchase
price paid by the nonprofit organization to acquire the property from a third party, not to
exceed the appraised fair market value approved by the acquiring bureau, plus related and
associated expenses from a list approved by the Assistant Secretary for Policy, Management
and Budget.” To exercise this option, bureaus needed to enter into agreements wirith
nonprofit organizations. These agreements, called letters of intent,3 established terms under
which nonprofit organizations buy land for possible conveyance to the Park Service.

Although the “Guidelines” enables bureaus to negotiate the purchase price of land obtained
from nonprofit organizations at amounts less than the appraised value, the Southeast Region
did not take advantage of this option. According to Southeast Regional Office officials, the
option was not chosen because the Director of the Park Service issued a transmittal
memorandum with the August 1995 “Guidelines” stating that the Park Service would not


’ According to Deparhnental and Park Service guidelines, a letter of intent should be used whenever a nonprofit
organization seeks prior assurance from the Park Service or the Park Service requests the assistance of a
nonprofit organization in a proposed acquisition. The purpose of the letter of intent is to provide the nonprofit
organization with prior assurance of the Park Service’s interest in and intent to take conveyance of land
acquired by the nonprofit organization. At a minimum, the letter of intent is required to identie the land
desired by the agency; state the estimated value ofthe land subject to future appraisal; state the projected time
frame for when the agency intends to acquire the property: and contain a statement that if the agency is unable
or declines to purchase the land, the Federal Government is not liable to the nonprofit organization for the
disposition ofthe land. Letters of intent compel both the Co\emment and the nonprofit organizations to abide
by guidelines that, for example, provide the Government with the right to inspect the nonprofit organization’s
records and financial information.

                                                       16
implement this option. Officials responsible for the Northeast and the National Capital
Regional Offices stated that they did attempt to negotiate with nonprofit organizations to
obtain a better price for the Government, although there was no documentation in the files
showing that such negotiations had taken place.

We found that in 10 of the 21 transactions reviewed, the nonprofit organizations’ purchase
prices were equal to or more than the prices at which the property was sold to the Park
Service. In these cases, nonprofit organizations paid $4 million for properties that they sold
to the Government for $3.8 million. For example, a nonprofit organization provided
$130,000 of financial assistance, which enabled the Park Service to pay the appraised value
of $1.52 million for land that was purchased from a private landowner for $1.65 million.

However, for the 11 other transactions, nonprofit organizations paid $3.7 million for
properties that they sold to the Government for $6.9 million, or a difference of $3.2 million.
Two of the 11 transactions were at the Northeast Region, where properties costing nonprofit
organizations $575,000 were sold to the Government for $658,000, or a difference of
$83,000. The other nine transactions involved the Southeast Region, where nonprofit
organizations paid $3.1 million for properties that were sold to the Government for
$6.2 million, or a difference of $3.1 million. For example:

        - The Park Service paid $3.1 million on October 3, 1997, for property that a
nonprofit organization had purchased on July 1, 1996, for $1.25 million without attempting
to negotiate a better price for the Government. Park Service officials stated that the payment
of the appraised value for the land was in accordance with Park Service policy.

        - The Park Service paid $468,000 on October 1, 1996, to acquire property that a
nonprofit organization had purchased on July 16, 1996, for $259,500. Park Service offtcials
told us that the payment was made in accordance with Park Service policy and that no
attempt had been made to negotiate a lower price to the Government.

In our opinion, by not negotiating the purchase price when buying land from nonprofit
organizations, the Park Service did not take full advantage of the opportunity to achieve
savings of as much as $3.2 million, the differences between the nonprofit organizations’
purchase prices and the selling prices of lands conveyed to the Park Service.

Recommendation

We recommend that the Director, National Park Service, ensure that land acquisition officials
comply with the Department of the Interior’s “Clarification to August 10, 1983 Guidelines
for Transactions Between Nonprofit Organizations and Agencies of the Department of the
Interior” and rescind the directive that does not allow the use of the option to negotiate the
purchase price under the “Guidelines.”


                                              17
National Park Service Response and Office of Inspector General Reply

In the April 30, 1999, response (Appendix 2) to the draft report from the Director, National
Park Service, the Park Service did not specifically address the recommendation. Therefore,
the Park Service is requested to reconsider the recommendation, which is unresolved
(Appendix 3).

Regarding the recommendation, the Park Service stated that it believed it was “in complete
compliance with the Department’s Nonprofit ‘Guidelines “’ and that the “Guidelines” already
allows it to negotiate for property by paying either fair market value or “such lessor figure
at which the nonprofit offers to sell the property.” The Park Service also said that if the
“[Office of Inspector General] feels that it is necessary- to rescind, change or modify any
portion of the ‘Guidelines’ to allow us [the Park Service] to negotiate, we recommend that
this be taken up with the Department [of the Interior].”

Because the “Guidelines” allows Department ofthe Interior bureaus to negotiate the purchase
price of land purchased from nonprofits, we do not believe that changes to the “Guidelines”
are needed. However, we found that Park Service personnel in the Southeast Region had
interpreted the Park Service Director’s guidance, which limited the options available under
the “Guidelines,” as precluding the Park Service from negotiating land acquisitions at less
than fair market value. Thus, if the Director’s guidance authorizes Park Service personnel
to negotiate with nonprofit organizations for land acquisitions at less than fair market value,
we believe that this guidance has been misinterpreted. Accordingly, we believe that the Park
Service should rescind or clarify the Director’s guidance so that Park Service personnel are
authorized to obtain less than fair market prices in negotiating land acquisitions with
nonprofit organizations, in accordance with the Departmental “Guidelines.”

Additional Comments on Audit Finding

In its response, the Park Service disagreed with our statement that it “did not take advantage
of the opportunity to achieve savings of about $3 million. which represented the differences
between the nonprofit organizations’ purchase prices and the selling prices of lands conveyed
to the Park Service.” The Park Service said that “because in most cases where the purchase
price paid by the non-profit was lower than the Service’s approved appraised value. we [the
Park Service] have at least verbally attempted to negotiate a sale price at the lower amount.”
The Park Service further stated that it had no documentation to show that these negotiations
occurred but that it would document the negotiations in the future. In addition, the Park
Service stated that none of the 11 properties cited in the report could have been purchased
for less because “[ulsually, we know up front if the nonprofit will sell for less than the
appraisal or donate.” Referring to the Uniform Relocation Assistance and Real Property
Acquisition Policies Act of 1970 (Public Law 9 l-646). the Park Service stated, “As long as



                                              18
[this law] requires us, to offer the approved appraised value, regardless ofpurchase price, our
opportunity for potential savings will be limited.”

Although the Park Service, in its response, stated that it attempted to negotiate with nonprofit
organizations “in most cases” to obtain properties at the price paid by the organizations and
that none of the report’s 11 purchases could have been purchased for less than the appraised
market value, we found these statements to be inconsistent with statements made by Park
Service Southeast Region officials during our audit. Although officials at the Northeast and
National Capital Regional Offices said that they attempted to negotiate a favorable price for
the Government, officials at the Southeast Regional Office, where 9 of the 11 transactions
took place, said that they did not attempt to negotiate the purchase price. Southeast Region
officials said that the Park Service Director’s guidance authorized them to offer a nonprofit
organization only the amount of the property’s fair market value but that they could accept
a lower price offered by the organization. Based on the officials’ comments, we concluded
that the Southeast Region did not negotiate with nonprofit organizations to obtain land at less
than fair market value because of the Director’s guidance.




                                              19
c. CONSERVATION EASEMENTS

The National Park Service did not properly establish the amount of compensation paid for
the two conservation easements reviewed. Section 1 .l of the Park Service’s Acquisition
Procedures Manual requires the Park Service to obtain only the minimum interest in acquired
lands necessary to protect park resources. and the “Uniform Appraisal Standards for Federal
Land Acquisitions” and the Park Service’s Land Acquisition Procedures Manual contain
guidelines on preparing and updating appraisals. The Park Service, however, in an attempt
to facilitate the acquisition of conservation easements that it considered to be vital to the
protection of the scenic environment at two parks, (1) obtained reappraisals at one park,
which may have resulted in its paying $2.6 million more than fair market value to obtain a
conservation easement and in insufficient funds to acquire other higher priority property, and
(2) did not obtain a valid appraisal at another park and therefore had insufficient support for
a $588,000 conservation easement.

The Park Service purchases conservation or scenic easements to maintain the aesthetic value
of park environments. Such easements place restrictions on the landowners’ use of their
land. According to Section A-20 of the “Standards,” agencies are required to compensate
landowners for the financial losses caused by the placement of restrictions on their
properties. To determine the fair market value of easements. appraisers should estimate the
difference in the value of properties before and after restrictions are imposed. Regarding the
purchase of conservation easements, Section 1.1 of the Manual requires the Park Service to
“[use] to the maximum extent practical cost-effective alternatives to direct purchase of
privately owned lands and, when acquisition is necessary, acquire or retain only the
minimum interests necessary to meet management objectives.”

During fiscal years 1995 through 1997, the Park Service purchased 23 easements, costing
$9.0 million, including 2 easements, costing $7.2 million, at the sites visited. We reviewed
the two easements at the sites visited and identified the deficiencies described in the
paragraphs that follow.

        Acadia National Park. In 199 1, owners of an island outside Acadia National Park
but within the Park’s general planning area contacted the Park Service to discuss the Park
Service’s interest in obtaining an easement on the property. At that time, the island was not
one of the Park’s land acquisition priorities; thus, Park officials suggested that the owners
contact local? state, and national conservancy organizations which might be interested in
acquiring the island. However, according to Park Service files. none of these organizations
had adequate funding, so action was not taken to purchase the property. Subsequently, the
Park Service conducted a study which determined that purchase of a conservation easement
on the island would be appropriate. In August 1993, the Park Superintendent and
landowners agreed to the placement of a conservation easement on about 4.300 of the
island’s 4,560 acres to protect existing natural, ecological, scenic. and cultural resources;
preserve the traditional shorefront view; and limit residential and commercial development.

                                              20
An appraisal completed in July 1994 estimated the value of the entire tract at $5.9 million
and the value of the conservation easement at $4.1 million. Although this appraisal was
reviewed and approved, there was no record in the Park Service’s files that an offer was
made to the landowners based on the appraisal. A Park Service official stated that the
landowners did not agree with the appraised value.

About 5 months later, in December 1994, the Park Service obtained a reappraisal of the
easement. The appraiser was directed by the Park Service to use a “different scope of work,”
which entailed segmenting the property into five separate tracts and assigning a value to each
tract. Using this method, the appraiser estimated the value of the land at $7.9 million and
the value of the easement at $4.7 million. The Park Service offered $4.7 million to the
landowners, who rejected the offer.

In March 1995, the Park Service obtained a second reappraisal of the conservation easement.
The appraiser was directed to use another method to revalue the economic loss that would
result from the placement of the easement. This method involved segmenting the property
into five separate tracts, as well as excluding from consideration two parcels totaling 250
acres upon which the development of 18 dwellings was allowed. Using this method, the
value of the entire tract remained at $7.9 million, but the value of the easement increased to
$6.7 million. In March 1995, the Park Service offered to buy the easement for $6.7 million,
and the landowners accepted the offer.

In regard to the acquisition of this easement, there was no documentation provided to justify
the reappraisals after the initial appraisal had been reviewed and approved by the Park
Service, and there was no information in the file indicating that the real estate market or the
highest and best use of the land had changed sufficiently to require reappraisals. In addition,
there was no evidence that greater restrictions were imposed or needed to be imposed on the
property after the initial appraisal. As such, we believe that there was no basis for the
increased valuation of the easement from the initial appraisal of $4.1 million to the
acquisition cost of $6.7 million, or a $2.6 million difference. Moreover, at the time the
easement was acquired, there was a $24.5 million backlog of land within Park boundaries
that had been identified for acquisition, although the easement was outside Park boundaries
(but within the Park’s general planning area). Also: the Park had a backlog of donated land
awaiting the processing of title transfers. Because the Park Service purchased the
easement (which cost $6.7 million of the $7 million available to the Park in fiscal year 1995
for land acquisitions), it did not have sufficient money to buy available property within the
Park, appraised at $1.4 million. and to obtain title and ownership of donated property. which
would cost another $200,000 to process.

Park Service officials said that multiple reappraisals had been performed and action had been
taken to obtain this easement because the easement became the highest priority in that it



                                              21
1j

     presented a “unique opportunity” to protect almost an entire island. The officials further
     stated that the landowners were willing sellers but that they wanted additional compensation.

             Assateague Island National Seashore. In 1996, to protect the scenic view from the
     Assateague Island National Seashore’s visitor center, the Park Service purchased a
     conservation easement on 84 acres of nearby shoreline. The easement prohibited residential
     development on this property but allowed the construction of an 1 S-hole golf course. This
     easement was purchased from a nonprofit organization, which had bought the easement at
     the Park Service’s request. Although the nonprofit organization purchased the easement for
     $525,000, the Park Service paid $588,000 for the property based on the easement valuation
     in an appraisal obtained by the nonprofit.

     In our opinion, the Park Service purchased this easement without having obtained a valid
     appraisal because the appraisal obtained by the nonprofit organization, which was reviewed
     and accepted by the Park Service, did not comply with Park Service regulations and the
     “Standards.” Specifically, the appraisal submitted by the nonprofit organization provided
     an estimate of the value of other larger and adjacent properties rather than the value of the
     easement. Moreover, Section C-3 of the “Standards” states, “Although the appraiser is an
     advocate of his opinion, there must be nothing in his testimony or demeanor that suggests
     advocacy for his client’s interest.” Because the appraisal was based on client instructions and
     prepared for the “internal use” of the client, we consider the appraisal not to be impartial and
     thus not in compliance with Section C-3 of the “Standards.”

     The Park Service’s Chief Appraiser at the Washington Office stated that the Washington
     Office would not have approved the nonprofit appraisal and that the field office which
     reviewed the appraisal should have obtained another appraisal. However, we found that the
     Washington Office had not reviewed the appraisal prior to our review and that there was no
     requirement for the field office to send the appraisal to the Washington Office for review and
     approval. Park Service field office officials said that they accepted the appraisal because
     they wanted to expedite the purchase of the property to prevent planned development which
     would have compromised the scenic views at the nearby park visitor center.

     Recommendations

     We recommend that the Director, National Park Service:

               1. Require that documentation be prepared for reappraisals obtained less than 1 year
     after the original appraisal was approved to show that the updates were warranted based on
     changes in market conditions. highest and best use, and/or the need to impose additional
     restrictions on land use.

             2. Establish controls to ensure that appraisals are prepared properly and are based on
     objective and independent estimates of land values.

                                                   22
National Park Service Response and Office of Inspector General Reply

In the April 30, 1999, response (Appendix 2) to the draft report from the Director, National
Park Service, the Park Service concurred with Recommendations 1 and 2. Based on the
response, we consider Recommendation 2 resolved but not implemented and request that the
Park Service reconsider its response to Recommendation 1, which is unresolved (see
Appendix 3).

In its response, the Park Service stated that it “fully concurred” with Recommendation 1 and
that as part of its “contracting process, for appraisal updates, [it] should be documenting any
changes that could potentially effect the original value estimate.” The Park Service further
stated that it would “take steps to immediately confirm that our current policies are being
followed.”

We do not believe that the Park Service’s concurrence was fully responsive to the
recommendation. Specifically, the Park Service stated that by ensuring compliance with its
current policies, it would implement corrective action. However, during our audit, we found
no Park Service policy that required written justification (based on factors such as changes
in market conditions, highest and best use, and/or the need to impose additional restrictions
on land use) for reappraisals which were obtained less than 1 year after the original appraisal
was approved. Therefore, the Park Service is requested to reconsider its response to the
recommendation and, if such a policy has been issued, to provide information and/or a copy
of the policy.

Additional Comments on Audit Finding

In its response, the Park Service provided additional comments on the finding. The Park
Service’s comments and our replies are as follows:

         National Park Service Comments. Regarding the first acquisition discussed in this
finding: the purchase of a 4,000-acre easement at Acadia National Park for $6.657.000. the
Park Service said that it did not agree that it paid more than $2.6 million over the fair market
value or that other higher priority properties should have been acquired. The Park Sewice
said that the purchase decision was based on “a resource management decision made at the
park level” and that this decision “is a dynamic one, depending on the situation at that
particular time, taking into account such items as the mission of the park, threat to the
resource, willing or unwilling seller, available funding, etc.” The Park Service further said
that the property was “a high priority,” that the easement restrictions “were needed to protect
the resource,” and that it “firmly believe[d]” it paid “fair market value for the easement
acquired.”




                                              23
        Ofice of Inspector General Reply. We concluded that the Park Service paid
$2.6 million more than the fair market value for the subject easement based on the facts that
the Park Service had no documentation to show that (1) the original, approved appraisal was
inaccurate or improperly prepared and reviewed and (2) a reappraisal was needed (based on
changes in the market value or the highest and best use of the property or on the need for
 additional restrictions on land use). We believe that the easement acquired was no more
restrictive than the easement described in the initial appraisal. Thus, we found no
justification for Park Service obtaining two additional appraisals, which increased the value
of the easement from $4.1 million to $6.7 million (a $2.6 million difference).

In its response, the Park Service took exception to our including $2.6 million as “Funds To
Be Put To Better Use” in Appendix 1, stating that these funds “were put to proper use in
protecting park resources.” However, we found no justification for the additional amount
paid for the easement and no benefit to the public from the reappraisals.

Regarding the statement that the purchase of the easement did not result in “insufficient
funds [being available] to acquire other higher priority property,” we found that before the
owners of the easement property offered to sell the property to the Park Service, the Park
Service had not identified this property (which is outside park boundaries) as a priority land
acquisition. However, at that time, the Park Service had identified other parcels of land
within park boundaries as acquisition priorities. After the purchase of the easement, the Park
Service did not have sufficient funds to acquire the lands within park boundaries that
previously had been considered priority purchases.

        National Park Service Comments and Office of Inspector General Reply.
Regarding the purchase of the 84-acre easement at Assateague Island National Seashore for
$588:000, the Park Service stated that “the appraisal used to establish just compensation did
not meet [the “Standards”] and a second appraisal should have been procured.” However,
in its response, the Park Service “disagree[d] with the amount in question” and estimated
 “that approximately only $168,000 ofthepurchase price should be considered questionable.”
Because the Park Service agreed that the appraisal did not meet standards and provided no
justification for its statement that only $168,000 of the $588,000 of “Questioned Costs”
should be “considered questionable?” we made no adjustments to the amount reported in
Appendix 1.




                                             24
D. BUSINESS RELOCATION PAYMENTS

The National Park Service’s Southeast Regional Office did not maintain sufficient
documentation to support relocation payments made to businesses that were moved as a
result of land acquisitions. The Code of Federal Regulations (49 CFR 24.207) requires that
requests for relocation payments be supported by documentation supporting the expenses
claimed. However, the Park Service’s Southeast Region paid business owners for claims that
were not supported by adequate documentation to expedite the relocation of displaced
property owners and tenants prior to the 1996 Summer Olympics. As a result, the Park
Service did not have adequate assurance that payments for relocation costs totaling $5 1,700
were reasonable or justified, and it made a duplicate relocation payment of $1,700.

Of the three regional offices visited, only the Southeast Region had reported business
relocation payments exceeding $5,000 during fiscal years 1995 though 1997. We reviewed
all 13 payments at this region, totaling $181,747, and found that 3 payments, totaling
$51,700, were not supported by sufficient documentation and that 1 payment, for $1,700,
was a duplicate payment for expenses compensated previously. The four payments are
discussed as follows:

        - The Code of Federal Regulations (49 CFR 24.303) authorizes payment for actual
moving and related expenses that agencies deem necessary for services such as packing,
transporting, unpacking, and storing business personal property. The Code of Federal
Regulations (49 CFR 24.304) also authorizes payments not to exceed $10,000 for actual
expenses incurred in relocating and reestablishing small businesses, such as repairs or
improvements to replacement property required by law, redecoration or replacement of
soiled or worn surfaces at the replacement site, and professional services related to the
purchase or lease of a replacement site. We found, however, that one business owner who
received two payments totaling $72,750 for moving expenses ($62,750) and business
reestablishment expenses ($1 O,OOO), received moving expense payments of $36,700 and
reestablishment expenses of $10,000, which were not supported by receipts to document that
these expenses were incurred. Although the claimant provided the Park Service with an
estimate of $36,700 for moving expenses, Park Service files contained no vendor invoices
or other documentation showing that these costs were incurred by the claimant. Similarly.
Park Service files contained only two handwritten proposals as support for the
reestablishment expenses claim of $12.850 (for which payment of S 10,000 was made). with
no vendor invoices or other documentation to show that these costs were incurred by the
claimant.

        - The Code of Federal Regulations (49 CFR 24.303) states that if a displaced person
elects to take full responsibility for a move, the agency may pay the person’s self-moving
expenses in an amount not to exceed (1) the lower of two acceptable bids or (2) estimates
obtained by the agency or prepared by qualified staff. The Code allows the agency discretion
to approve a bid or estimate for a low cost or uncomplicated move based on a single bid or

                                            25
estimate. We found that four business owners were each paid $5,000 to personally move
their businesses, one of whom was paid an additional $1,700 for reestablishment expenses.
According to a Park Service official, the Park Service called a local moving company and
described the nature of the businesses and the items to be moved to facilitate the moves of
these four businesses. The official stated that the moving company provided verbal estimates
of moving expenses for the businesses and that, on that basis, the Park Service prepared
written estimates of the costs of three of the moves. According to the official, the Park
Service “forgot” to prepare the written estimate for the fourth move. As a result, the Park
Service did not have documentation to support the self-move payment of $5,000 made to one
of four claimants.

        - One of the business owners received a self-move payment of $5,000 and another
payment of $1,700 for business reestablishment expenses. The invoice supporting the
$1,700 payment showed that the funds were used to pay for a storage building to shelter
business property at the owner’s residence. However, the $5,000 self-move payment was
based on a Park Service estimate of $5,475, which included $2,100 for storage costs. As
such, we consider the additional payment of $1,700 to be compensation for storage expenses
that were reimbursed previously.

Officials at the Southeast Region said that they had not obtained the required documentation
so that they could expedite the relocations of business owners whose vacated sites were
needed for the 1996 Summer Olympics.

Recommendations

We recommend that the Director, National Park Service:

       1. Ensure that the payments of relocation claims are made in accordance with Park
Service procedures.

        2. Obtain documentary support for payments of $5 1,700 ($36,700 of moving
expenses, $10.000 of reestablishment expenses, and $5,000 of unsupported self-move costs)
or seek recovery of such reimbursements.

       3. Recover the $1,700 overpayment of storage costs.

National Park Service Response and Office of Inspector General Reply

In the April 30. 1999. response (Appendix 2) to the draft report from the Director. National
Park Service. the Park Service concurred with all three recommendations. Based on the
response, we consider Recommendations 1, 2, and 3 resolved but not implemented (see
Appendix 3).


                                             26
Additional Comments on Finding

In its response (page S), the Park Service said that it agreed that “there was a lack of formal
supporting documentation” for payment of relocation expenses. However, in a different part
(page 1) of its response, the Park Service stated that it believed “the questionable $5 1,700
payment for business relocation to be reasonable and justified once all the necessary
documentation is obtained.”

Since the Park Service did not provide documentation to support its statement that the
business relocation payments of $5 1,700 were “reasonable and justified,” we have not
deleted the $5 1,700 as a “Questioned Cost” in Appendix 1.




                                              27
E. MANAGEMENT INFORMATION SYSTEM

The management information system of the National Park Service’s Land Acquisition
Division contained data that were inaccurate and incomplete. Specifically, the system did
not contain information on seven land purchases, totaling $1.1 million, and 11.4 percent of
the system’s required data fields on land purchases made during fiscal years 1995 through
 1997 were not completed. Office of Management and Budget Circular A- 130, “Management
of Federal Information Resources,” requires that Federal agencies “record, preserve, and
make accessible sufficient information to ensure the management and accountability of
agency programs.” Also, Office of Management and Budget Circular A-123 (revised),
“Management Accountability and Control,” requires Federal agencies to ensure that “reliable
and timely information is obtained, maintained, reported and used for decision making.”
According to Park Service officials, system data were not complete and accurate because the
Park Service had not implemented quality control procedures to validate system data or to
ensure that erroneous data from a previous management information system were not entered
into a newly installed system. As a result, the Park Service did not have reliable information
for tracking and managing land acquisition activities.

To evaluate the accuracy and completeness of the management information system’s data
at the Division’s Northeast, National Capital, and Southeast Regions, we compared selected
land acquisition information recorded in the system with information recorded in the Park
Service’s official accounting system, the Federal Financial System. We found that the
Northeast Regional office did not enter six land transactions, costing $492,000, into the
management information system and that the National Capital Region did not enter one
transaction, costing $650,000. Regional officials said that seven transactions were not
entered because the regions did not always have sufficient staff to properly enter all data and
that there were no procedures to perform accuracy checks or to reconcile financial system
data with management information system data.

We also reviewed the required information recorded in the management information system
for 25 land acquisition transactions to determine whether all required information, such as
appraisal dates, offer dates, purchase amounts, acres purchased, and closing dates, was
included. We found that 70 of the 550 required data fields for the 11 selected transactions
at the Northeast Region, 18 of the 100 required data fields for the 2 selected acquisitions at
the North Capital Region. and 55 of the 600 required data fields for the 12 selected
acquisitions at the Southeast Region were not completed. In total, the system did not include
information on 143 of the required 1,250 data fields selected for testing, or 11.4 percent of
the data fields.

According to Park Service officials, all of the required information may not have been
included or entered into the current management information system. established in
November 1997, because (1) data from the previous system may not have been properly
integrated into the new system (for example, some new data fields in the new system did not

                                              28
exist in the old system); (2) the land acquisition staff had not received sufficient training on
correcting system errors; and (3) no quality control system had been implemented to monitor,
identify, and ensure that the system contained and maintained complete and accurate data.

Because information in the management information system was incomplete and inaccurate,
Park Service managers did not have reliable information for tracking and managing land
acquisition activities.

Recommendations

We recommend that the Director, National Park Service, ensure that:

         1. Quality control procedures are established and training is provided at the field-
office level so that management information system data are current, complete, and accurate.

         2. Information in the management information system is reconciled, to the extent
feasible, to the official accounting information in the Federal Financial System on at least
an annual basis.

National Park Service Response and Office of Inspector General Reply

In the April 30, 1999, response (Appendix 2) to the draft report from the Director, National
Park Service, the Park Service concurred with Recommendation 1 and nonconcurred with
Recommendation 2. Based on the response, we consider Recommendation 1 resolved but
not implemented and request that the Park Service reconsider its response to
Recommendation 2, which is unresolved (see Appendix 3).

Regarding Recommendation 2. the Park Service stated that it did “not believe the data in the
MIS [Management Information System] can be reconciled with the FFS [Federal Financial
System] with any degree of accuracy. The data is input differently in the two systems and
at different times. Any reconciliation would be extremely difficult and produce dubious
results.” The Park Service also said that the management information system was not part
of the National Park Service’s financial system and thus should not be subject to Office of
Management and Budget regulations. In addition, the Park Service said that its management
information system “is an internal database used to track workload and project status only.”

We recognize that the Park Service’s management information system, which contains land
acquisition data, and its financial accounting system differ in purpose, data entry, and data
content. However, both systems contain information on land acquisitions, and, to the extent
that the same information is or should be recorded in both systems, we believe that this
information should be reconciled to ensure the completeness and accuracy of land acquisition
data.


                                              29
The Park Service also stated that its management information system is an “internal database
used to track workload and project status only” and therefore was not subject to Office of
Management and Budget Circulars A- 123, “Management Accountability and Control,” and
A-130, “Management of Federal Information Resources.” We consider both of these
regulations to be applicable to the Park Service’s management information system, which
is used to record and track land acquisition information. Circular A-123 pertains to a
requirement that Federal agencies ensure that “reliable and timely information is obtained,
reported and used for decision making,” and Circular A- 130 requires Federal agencies to
ensure that “records management programs provide adequate and proper documentation of
agency activities.”

Additional Comments on Finding

In its response, the Park Service said that it disagreed that it did not have reliable information
to manage its acquisition program because “once the transition and testing phase was
completed the information was available to properly manage our program.” However, the
Park Service did not provide any documentation during our review to show that corrective
actions on the noted deficiencies in the management information system had been taken.




                                                30
                                OTHER MATTERS
We found that the Southeast Regional Office did not obtain independent appraisals when it
acquired land from nonprofit organizations. Although Departmental and Park Service
guidance allows landowner appraisals to be used for acquisitions, subject to Park Service
review and approval, we found that at two (the Northeast and National Capital Regional
Offices) of the three offices visited, the Park Service generally obtained its own independent
contract appraisals for acquisitions involving both private parties and nonprofit
organizations. However, the Southeast Regional Office’s practice was to obtain independent
contract appraisals when it acquired land from private landowners and to accept appraisals
obtained by nonprofit organizations, subject to the review and approval of the Park Service,
when it purchased land from these organizations. For example, of the 21 nonprofit
organization transactions reviewed, the National Capital and the Northeast Regions obtained
independent appraisals in 9 of 11 transactions, whereas the Southeast Region obtained
independent appraisals for only 1 of 10 transactions (examples are provided in the paragraphs
that follow). Southeast Regional officials said that they used appraisals provided by
nonprofit organizations because these organizations usually initiated the acquisitions and had
obtained the appraisals before the Park Service was involved in the transaction. The officials
also said that they did not obtain additional independent appraisals because they wanted to
avoid lengthening the acquisition process.

Land acquisition officials at the offices visited and at the headquarters agreed that obtaining
independent appraisals would be beneficial because it would enable the Park Service to
provide some level of control over the appraisers. We believe that independent appraisals
may result in market values that are lower than the estimated values in appraisals obtained
by the property owners, as illustrated in the following examples:

        - The owner of an 8,580-acre tract obtained two appraisals that valued the property
at $16 million and $19 million, respectively. The Park Service’s Southeast Region obtained
an independent appraisal that valued the property at $6.6 million. The landowner offered to
sell the property for $7.6 million, which the Park Service accepted after obtaining
Congressional approval (which is required for payments that exceed the appraised value).
In this case. by obtaining an independent appraisal. the Park Service obtained land at
$8.4 million less than the landowner’s appraised value.

        - A nonprofit organization that owned a 78.2-acre tract obtained an appraisal that
valued the property at $5.1 million. The organization asked the Park Service’s Southeast
Region to use the appraisal to establish the purchase price. The Region determined that the
appraisal did not meet Federal standards and prepared an in-house appraisal which valued
the propem at $3.1 million. The organization accepted the $3.1 million offer, which was
$2 million less than the value of the land as estimated in the organization’s appraisal.



                                              31
        - The owner of an improved .45-acre tract obtained an appraisal that valued the
property at $320,000. The Park Service’s Southeast Region obtained an independent
appraisal which valued the property at $280,000. The landowner accepted the Park Service’s
$280,000 offer, which was $40,000 less than the property’s value as estimated in the
appraisal obtained by the property owner.

Based on the previous examples, we believe that the Park Service has an opportunity to
reduce land acquisition costs by obtaining independent appraisals. Accordingly, we suggest
that the Park Service issue guidance requiring the preparation of in-house or independent
contract appraisals for all land acquisitions.

National Park Service Comments and Office of Inspector General Reply

In the April 30, 1999, response (Appendix 1) to the draft report from the Director, National
Park Service, the Park Service stated that it believed the three examples in the report
illustrating the opportunity to reduce acquisition costs by obtaining independent appraisals
were “erroneous and misleading.” The Park Service further said that “the report falsely
assumes that the independent appraisals, used in each of the examples, would have been
approved for just compensation purposes” and that none of the appraisals met appraisal
standards. In addition, the Park Service said that “any comparison to the differences between
these appraisals and our appraisals produces only illusory cost savings.”

The three examples in our report describe the lower market values in appraisals that were
provided by independent appraisers as compared with higher market values for the same
property in appraisals that were provided by appraisers hired by the property owner. We also
stated that one of the appraisals obtained by the property owners did not meet appraisal
standards and made no representations that reportable savings (Appendix 1) were identified.
We believe that the Government’s interests would be better protected if the Park Service
obtained independent appraisals, a belief that was expressed by all Park Service land
acquisition field personnel whom we interviewed during our audit. Also, in the report
section “Appraisal Standards,” we provided examples of appraisals that we considered to be
based on inadequate support. In several of these examples, the appraisals, which had been
obtained by the property owners and approved by the Park Service. established what we
believe were higher than warranted market values.




                                             32
                                                    APPENDIX 1

             CLASSIFICATION OF MONETARY AMOUNTS

                              Funds To Be Put   Questioned
         Finding. Area         To Better Use      costs
Appraisals                                       $150,000
Conservation Easements           $2,600,000       588,000
Business Relocation Payment           1.700        51.700
 Total                           $2,601.700     $789.700




                                33
                                                                                                  APPENDIX 2
                                                                                                  Page 1 of 1C

                     United States Department of the Interior
                                       NATIONAL PARR SERVICE
                                             1849 C Street, N.W.
                                           Washington, DC. 20240
IN RWLYRLFERM:


     L1415(2540)
                                         IAPR 3 0 1999

     Memorandum

     To:            Assistant Inspector General for Audits

     From:       *@Director

     Subject:       OIG Draft Audit Report on Land Acquisition Activities, National Park
                    Service (Assignment No. E-IN-NPS-01 O-97)

     The National Park Service has completed its review of the subject report. While the
     audit, as noted in the cover memorandum from the Assistant Inspector General for
     Audits, found that the land acquisition program was generally conducted in accordance
     with applicable laws and regulations, several aspects of the program were singled out for
     criticism by OIG. As the following comments illustrate, the Service does not agree with
     all of the conclusions reached by the auditors.

     Appendix - Classification of Monetary Amounts

     As summarized in the Appendix, the report identifies a total of $2,60 1,700 in “Funds To
     Be Put To Better Use.” (As noted in the report introduction on Page 1, during the time
     period studied, the Service “. .used appropriated funds totaling $169 million to acquire
     69,000 acres of land”.) In fact, $2,600,000 of the $2,601,700 were put to proper use in
     protecting park resources, by acquiring an easement at Acadia National Park. We agree
     there is some question as to the remaining $1,700, which involves a business relocation
     payment at Martin Luther King, Jr. National Historic Site. This equates to only .OOOl
     percent of $169 million obligated during fiscal years 1995 through 1997.

     The report also identified a total of $789,700 in “Questioned Costs.” In our opinion, only
     $168,000 of the $789,700 should be considered a questionable cost. We believe the
     $150,000 in questioned appraisal costs is unwarranted, since we had an approved
     appraisal accounting for $80,000 of this amount. The remaining $70,000 was for a
     purchase at Women’s Rights National Historical Park. The purchase price was based on
     a supplemental market analysis written by an NPS review appraiser after disapproving a
     nonprofit appraisal of $80,000. We also believe the questionable $5 1,700 payment for
     business relocation to be reasonable and justified once all the necessary documentation is
     obtained. Finally, the report questioned the purchase of an easement at Assateague Island
     National Seashore for $588,000. We agree this appraisal did not met Federal appraisal
                                                                                             APPENDIX 2
                                                                                             Page 2 of 1C


                                                                                2.

standards, but disagree as to the amount in question. After revisiting this report we
estimate that approximately only $168,000 of the purchase price should be considered
questionable. This equates to only .Ol percent of $169 million obligated during fiscal
years 1995 through 1997.

The following are our responses corresponding to specific sections of the draft audit
report, including our concurrence or nonconcurrence with certain findings, the specific
reasons for any nonconcurrence, and the actions taken or planned to remedy those items
that are believed to be in need of remediation.

A. Appraisals

        Page 4 of the draft report states that “The National Park Service did not fully
        comply with the established standards or implement the required procedures for
        preparing and reviewing appraisals of real property.”

        We strongly disagree with the above statement. Except for a few isolated cases,
        all appraisals and reviews have met the intent of all established standards. The
        specific cases will be discussed under the following appropriate sections.

    Adequately Supported Appraisals. Pages 5 and 6 of the draft report identify six
    appraisals which, in the opinion of the auditors, were not adequately supported.
    We disagree with this conclusion for the following reasons:

    1. The first appraisal addressed was the $3.1 million valuation of a currently
       inaccessible tract of land located at Chattahoochee River National Recreation
       Area. The report stated “. . . we concluded that the appraised value was overstated
       because there was no documentation to show that the land had an existing or
       potential highest and best use for residential development.” We believe the
       appraiser’s conclusion that the property did have a highest and best use for
       residential development was correct based on the assumption that access could
       be purchased from the adjacent landowner. The appraiser interviewed this
       landowner who stated that he would sell an access easement to his neighbor if
       requested.

    2. The second appraisal addressed an exchange of Federal land for private land at
       Chattahoochee River National Recreation Area. The report stated that “We
       considered one appraisal to be inadequately supported because the appraiser used
       the recent sale of the same property to a related party to estimate the property’s
       market value.” We believe the appraiser appropriately considered this sale of the
       subject property and properly concluded it was an arms-length transaction.
       Section A-5 of UASFLA states, “Since compensation is measured by market
       value (supra, p.3) prior sales of the same property, reasonably recent and not
       forced, are extremely probative evidence of market value. Accordingly, the




                                            35
                                                                                          APPENDIX 2
                                                                                          Page 3 of lo


                                                                                3.

   appraiser has an obligation to determine what the owner paid for the property.”
   The appraiser also presented additional sales to support his conclusion that this
   transaction was within the adjusted value range of the other sales.

3. The report questioned a positive 15 percent adjustment made in an appraisal of an
   improved parcel located at Martin Luther King, Jr. National Historic Site. We
   feel this upward adjustment was supported by a paired-sale analysis in the
   appraisal and warranted consideration of the urban renewal efforts currently
   taking place in the area of the subject property. The Appraisal of Real Estate,
   published by the Appraisal Institute, states that “When market evidence clearly
   supports differences between sales attributable to specific elements of
   comparison, paired data analysis can be a very effective technique.”

4. The fourth appraisal questioned in the report concerned the reason why an
   updated appraisal was made without a physical reinspection of the volume and
   quality of timber on the property. In fact, a forester who confirmed the current
   volume, quality and value of timber did reinspect the property. However, the
   appraiser was remiss by not physically reinspecting the property for the update.
   It should be noted that the failure of the appraiser to reinspect had no impact on
   the final value conclusion reached in the updated report.

5. The fifth appraisal targeted in the report involved two properties located at
   Martin Luther King, Jr. National Historic Site. These two properties had known
   contaminants, but were appraised as being free of contaminants in order to
   expedite the acquisition process in time for the 1996 Olympic Games. Since the
   NPS did not take title to the properties until the contaminants were removed, we
   believe the appraisals were valid for the condition of the property when it was
   conveyed.

6. The final appraisal identified by the report concerned a positive $10,000
   adjustment based upon a landowner’s assertion and not verified by the appraiser.
   We agree the appraiser was negligent by not confirming the assertion and the
   NPS review appraiser was remiss by not noting this in the review. This NPS
   review appraiser no longer works for the Service.

Appraiser Certifications. We agree with the penultimate paragraph on Page 6 of
the report that 30 of 42 appraisals audited did not contain the required certifications
that the appraisals were prepared in conformity with the Uniform Appraisal
Standards for Federal Land Acquisitions (UASFLA). However, we strongly disagree
with the statement that “. . .the Park Service did not have full assurance that the
appraisers properly considered the ‘Standards’ when the appraisals were prepared and
that the appraisals they prepared were valid and complete”. All appraisals used by
                                                                                              APPEJDIX 2
                                                                                              Page 4 of 10



                                                                                     4.

the Service to establish just compensation are reviewed to assure conformance with
UASFLA, regardless of what is certified by the appraiser. However, in light of this
finding, we intend to direct all of our offices that UASFLA certification be included
in all reports.

Prior Sales History. We agree that, as noted in the last paragraph on page 6,6 of the
42 appraisals reviewed did not contain the lo-year history of the subject property, but
strongly disagree that we did not have full assurance that the appraisals were based
on complete information on which to establish the estimated value of the land. All
NPS review appraisers have access to title information on all tracts being appraised.
If there were any indication of a recent arms-length transaction that might influence
the value of the subject tract, the reviewer would have required the sale to be
discussed in the report. In the future, we will ensure lo-year histories are included in
all reports.

Appraisal Reviews. We agree that, as noted on page 7 of the report, 40 of the 42
appraisal reviews did not contain 1 or more of the 4 opinions and 7 certifications
required under the Uniform Standards of Professional Appraisal Practice (USPAP).
However, we strongly disagree with the contention that the Service did not take
required actions to ensure that the appraisals were adequately supported and that the
review process was conducted in compliance with USPAP. As discussed under the
Appraiser Certification section, all appraisals used by the Service to establish just
compensation are reviewed to assure conformance with USPAP and UASFLA
Standards, regardless of missing opinion verbiage or certifications. Neither of these
items affects the competency or technical accuracy of the review. In the future, we
will ensure USPAP standards are followed. .

Required Appraisals. Pages 7 and 8 of the report identify two transactions in
which the Service did not obtain the required appraisal or did not maintain a copy of
the appraisal in its files. In the first instance, an appraisal report regarding a property
at Women’s Rights National Historical Park was furnished to the Service by a
nonprofit conservation organization. This $80,000 appraisal was reviewed by the
Service, but could not be approved because of serious deficiencies. The reviewer
subsequently did a field review and performed his own market analysis and became
the appraiser for this parcel. This process, where the reviewer becomes the appraiser,
is permitted under USPAP Standards Rule 3-l(g). We believe the reviewer’s final
value conclusion of $70,000 was fully supported.

In the second instance we agree that a copy of the original appraisal should have been
kept in the file, but disagree with the accusation that the $80,000 increase in value
between the original and the corrected appraisal may not have been warranted. The
original appraisal underestimated the square footage of the building on the subject.


                                             37
                                                                                          APPENDIX 2
                                                                                          Page 5 of 10


                                                                                 5.

Once the correct square footage was calculated, the value of the subject increased by
$80,000. The corrected appraisal was reviewed in conformance with UASFLA and
found to be fully supported. In the future, we will ensure that all offers of just
compensation are documented by appraisals.

Recommendations. Page 9 of the report contains three recommendations, which
are repeated here, in italicized type, followed by our comments.

1. Provide Washington O@ce oversight of regional offices ’ Iand acquisition
   activities to ensure that requirements for the preparation and review of
   appraisals are followed, including compliance with the “Standards. ”

   We fully concur with this recommendation and are currently in the process of
   hiring additional Washington Office staff to form oversight teams to review the
   land acquisition activities of all regional offrices. We anticipate the oversights
   will begin in FY 2000. ‘The responsible official will be the Chief, Land
   Resources Division.

2. Ensure that adequately documented appraisals are prepared and approved
   before oglers are made to purchase land.

   We fully concur that adequately documented appraisals are necessary to properly
   establish just compensation. We will ensure that this is accomplished by hiring
   additional Washington Office staff to oversee the appraisal procedures of all
   regional offices and the establishment of oversight teams as discussed previously.
   We anticipate that additional staff will be hired by the beginning of FY 2000.
   The responsible officials will be the Chief Appraiser and Chief, Land Resources
   Division.

3. Establish a requirement for obtaining two appraisals for acquisitions that are
   unique, controversial, or complex or that exceed a designated high dollar value
   threshold.

   We do not concur with this recommendation. We do not believe it is necessary to
   establish a mandatory two-appraisal requirement, when our staff review
   appraisers currently have the authority to procure as many appraisals as necessary
   to assure conformance with UASFLA. This authority is not limited to either the
   type or value of property being appraised. We also view this requirement as
   being potentially costly and not an efficient use of Federal funds, considering that
   many appraisals for these type of properties run into the tens of thousands of
   dollars, and may not even be necessary, Finally, having two divergent appraisals
   on high value properties could put the government at a decided disadvantage if
   eminent domain is ultimately used to acquire the property.




                                         38
                                                                                                APPENDIX 2
                                                                                                Page 6 of 10


                                                                                      6.

B. Nonprofit Organizations

      Paragraph 1, page 10 of the report states that “. . . the Park Service did not take
      advantage of the opportunity to achieve savings of about $3 million, which
      represented the differences between the nonprofit organizations’ purchase prices
      and the selling prices of lands conveyed to the Park Service.” We disagree,
      because in most cases where the purchase price paid by the non-profit was lower
      than the Service’s approved appraised value, we have at least verbally attempted
      to negotiate a sale price for the lower amount. We do, however, concur that there
      was no documentation in the file to show that these negotiations occurred. In the
      future we will be documenting our files to reflect these negotiations.

      Regarding this matter, the report further states, on page 11, that “. . . by not
      negotiating the purchase price when buying land from nonprofit organizations,
      the Park Service did not take full advantage of the opportunity to achieve savings
      of as much as $3.2 million.” The reality of the situation is that in the 11
      transactions referenced in the report, though we paid more than the nonprofit
      purchase price, none of this property could have been bought for less (Usually,
      we know up front if the nonprofit will sell for less than the appraisal or donate).
      As long as PL 9 l-646, as amended,&quires us, to offer the approved appraised
      value, regardless of purchase price, our opportunity for potential savings will be
      limited.

      Recommendation. The report makes one recommendation, which is repeated
      here, in italicized type, followed by our comments.

      We recommend that the Director, National Park Service, ensure that land
      acquisition          are in compliance with the Department of the Interior’s
      “Clarification to August 10, 1983 Guidelines for Transactions Between Nonprofit
                                                                                       ” and rescind the
      directive that does not allow the use of the option to negotiate price under the
      “Guidelines. ”

      We believe we are in complete compliance with the Department’s Nonprofit
      “Guidelines.” The “Guidelines” already permit us to negotiate by paying either
      the fair market value of the property, or such lesser figure at which the nonprofit
      offers to sell the property. If the IG feels that it is necessary to rescind, change or
      modify any portion of the “Guidelines” to allow us to negotiate, we recommend
      that this be taken up with the Department.

C. Conservation Easements

      Page 12 of the report states that the Service ” . . . (1) obtained reappraisals at one
      park that may have resulted in paying $2.6 million more than fair market value to
                                                                                       APPEYDIX 2
                                                                                       Page 7 of 10


                                                                              7.

obtain a conservation easement and resulted in insufficient funds to acquire other
higher priority property and (2) did not obtain a valid appraisal at another park
and therefore had insufficient support for a $588,000 conservation easement.”

The first acquisition discussed was the purchase of a 4,000-acre easement at
Acadia National Park for $6,657,000. We do not agree that we paid more than
$2.6 million over the fair market value or that other higher priority properties
should have been acquired. The decision to purchase any property, in terms of
priority or interest necessary to protect the resource, is a resource management
decision made at the park level. This decision is a dynamic one, depending on
the situation at that particular time, taking into account such items as the mission
of the park, threat to the resource, willing or unwilling seller, available funding,
etc. The park decided that this property was a high priority and the easement
restrictions were needed to protect the resource. We appraised the property based
upon these easement restrictions and firmly believe we paid fair market value for
the easement acquired.

The second acquisition discussed was the purchase of an 84-acre easement at
Assateague Island National Seashore for $588,000. We concur with the report
that the appraisal used to establish just compensation did not meet UASFLA
standards and a second appraisal should have been procured. We will take steps
to prevent this from happening in the future by hiring addition Washington Office
staff to oversee land acquisition procedures of all regional offices.

Recommendations. The report makes two recommendations, which are repeated
here, in italicized type, followed by our comments.

1. Require that documentation be preparedfor reappraisals obtained less than 1
   year after the original appraisal was approved to show that the updates were
   warranted based on changes in market conditions, highest and best use, and
   /or the need to impose additional restrictions on land use.

    We fully concur in this recommendation. As part of our contracting process,
    for appraisal updates, we should be documenting any changes that could
    potentially effect the original value estimate. We will take steps to
    immediately confirm that our current policies are being followed. The
    responsible official will be the Chief Appraiser.

2. Establish controls to ensure that appraisals are prepared properly and are
   based on objective and independent estimates of land value.

    We fully concur that appraisals should be prepared properly and are based on
    objective and independent value estimates. We will ensure that this is
    accomplished by hiring additional Washington Office staff to oversee
                                                                                             APPENDIX 2
                                                                                             Page 8 of 10


                                                                                      8.

          appraisal procedures of all regional offices and the establishment of oversight
          teams as discussed previously. We anticipate that additional staff will be
          hired by the beginning of FY 2000. The responsible offtcials will be the
          Chief Appraiser and Chief, Land Resources Division.

D. Business Relocation Payments

      Page 16 of the report states that “The National Park Service’s Southeast Regional
      Office did not maintain sufficient documentation to support relocation payments
      made to businesses that were moved as a result of land acquisition.” The report
      further states, “As a result, the Park Service did not have adequate assurance that
      payments for relocation costs totaling $5 1,700 were reasonable or justified, and it
      made a duplicate relocation payment of $1,700.”

      We concur that, as regards the specific relocation payments cited in the report,
      there was a lack of formal supporting documentation. In all cases, formal
      estimates, receipts or invoices will be prepared or sought. However, we firmly
      believe that all payments made were reasonable or justified. If, after our review of
      all supporting documentation, unauthorized payments were made, we will seek
      recovery from the claimant.

      Recommendations. The report makes three recommendations, which are
      repeated here, in italicized type, followed by our comments.

       1. Ensure that fhe payments of relocation claims are made in accordance with
          Park Service procedures.

          We concur with this recommendation and are currently in the process of
          hiring additional Washington Office staff to oversee all land acquisition
          procedures in the regional offices and to form oversight teams. We anticipate
          that additional staff will be hired by the beginning of FY 2000. The
          responsible official will be the Chief, Land Resources Division.

       2. Obtain documentary support for payments of $51,700 ($36,700 of moving
          expenses, 510,000 of reestablishment expenses and $5,000 of unsupported
          self-move costs) or seek recovery of such reimbursements.

          We concur with this recommendation. After obtaining and reviewing all
          supporting documentation, if any unauthorized payments were made, we will
          seek recovery from the claimant. We anticipate that this will be accomplished
          by the end of FY 1999. The responsible official will be the Chief, Land
          Resources Program Center, Southeast Regional Office.
                                                                                         APPENDIX 2
                                                                                         Page 9 of 10


                                                                                  9.

      3. Recover the $1,700 overpayment of storage costs.

         We concur with this recommendation. If, after the review of all supporting
         documentation, it is discovered that an overpayment was made, we will seek
         recovery from the claimant. We anticipate that this will be accomplished by
         the end of FY 1999. The responsible official will be Chief, Land Resources
         Program Center, Southeast Regional Office.

E. Management Information System

      Page 18 of the report states that “The management information system (MIS) of
      the National Park Service’s Land Acquisition Division contained data that were
      inaccurate and incomplete.” The report further states, “As a result, the Park
      Service did not have reliable information for tracking and managing land
      acquisition activities.”

      We concur that, during the audit period, the MIS was not complete and may have
      contained inaccuracies. These same inaccuracies existed in our old MIS and
      caused us to totally revise that system. Our new system utilizes a modem
      database and personal computers rather than an expensive main frame computer.
      The new system became operational, for testing purposes, in November 1997.
      Since we were transferring data from the old to new system, during the audit
      period, it would be expected that there would be inaccurate and incomplete data.
      Also, since the new system has new data fields, there was a transition phase for
      the incorporation of the old data, but all data was ultimately transferred.

      We disagree with the assertion that we did not have reliable information to
      manage our acquisition program. Once the transition and testing phase was
      completed the information was available to properly manage our program. The
      MIS is not part of the National Park Service’s Federal Financial System( FFS)
      and should not fall under OMB Circular A-123 or A-l 30. The MIS is an internal
      database used to track workload and project status.

      Recommendations. The report makes two recommendations, which are repeated
      here, in italicized type, followed by our comments.

      1. Quality control procedures are established and training is provided at the
         field ofice level to ensure that management information system data are
          current, complete, and accurate.

         We concur with this recommendation. Quality control procedures are now in
         place and, by the end of FY 1999, training will have been provided to all
         users of the system. The responsible official will be the Chief, National
         Program Center.



                                           42
                                                                                           APPENDIX 2
                                                                                           Page 10 of 1(


                                                                                     10.

      2. Information in the management information system is reconciled, to the extent
         feasible, to the oficial accounting information in the Federal Financial
          System on at least an annual basis.

         We do not concur with this recommendation. We do not believe the data in
         the MIS can be reconciled with the FFS with any degree of accuracy. The
         data is input differently in the two systems and at different times. Any
         reconciliation would be extremely difficult and produce dubious results. As
         previously stated, the MIS is not part of the National Park Service’s Federal
         Financial System( FFS) and should not fall under OMB Circular A-123 or A-
         130. The MIS is an internal database used to track workload and project
         status only.

F. Other Matters

         Page 20 of the report states that “We found that the Southeast Regional
         Office did not obtain independent appraisals when it acquired land from
         nonprofit organizations.” The report further states that “. . . we believe that
         the Park Service has an opportunity to reduce land acquisition costs by
         obtaining independent appraisals.”

         We agree that, for some acquisitions, the Service uses appraisals furnished
         either by a landowner or by a nonprofit conservation organization. All of
         these appraisals are performed by independent fee appraisers and reviewed by
         an NPS review appraiser certifying that they have met both UASFLA and
         USPAP standards.

         We believe that the three examples used to show how we had the opportunity
         to reduce acquisition costs by obtaining our own appraisals are erroneous and
         misleading. The report falsely assumes that the independent appraisals, used
         in each of the examples, would have been approved for just compensation
         purposes. None of these appraisals met UASFLA standards and any
         comparison to the difference between these appraisals and our appraisals
         produces only illusory cost savings.

      In summary, the Service appreciates the effort exerted by your Office in
      evaluating our land acquisition program and in making recommendations for
      improvement. We will strive to correct the deficiencies uncovered by the draft
      audit.




                                              43
                                                           APPENDIX 3




        STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
      Reference              status                Action Required

  A.l,A.2, C.2,D.l,      Resolved; not         No further response to
  D.2, D.3, and E.l      implemented.          the Office of Inspector
                                               General is required. The
                                               recommendations will be
                                               referred to the Assistant
                                               Secretary for Policy,
                                               Management and Budget
                                               for tracking of
                                               implementation.

        C.l              Management            An action plan,
                         concurs; additional   including the target
                         information needed.   date and the title of
                                               the official responsible
                                               for implementation, is
                                               needed.




     A.3, Bl, and E.2    Unresolved            Reconsider the
                                               recommendations, and
                                               provide action plans that
                                               include target dates and
                                               titles of the officials
                                               responsible for
                                               implementation.




                               44
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 235-922 1
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Paci’c Region

U.S. Department of the Interior                      (67 1) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
        :     Toll Free Numbers:
        :      l-800-424-5081          w
        :                              5
        :      TDD l-800-354-0996
                                       El
        I
        *
              FE/Commercial Numbers:
    ;          (202) 208-5300          E
        I      TDD (202) 208-2420      E


.       :
        :     1849 C Street, N.W.
        :     Mail Stop 5341
          I
          :
        :
        .:
        :.
         :d
        a
        :
        :
        m
        a
